NO.

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020

JUSTIN LANE FOUST,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
____________________________
The Petitioner, Justin Lane Foust, by and through his courtappointed counsel, Howard A. Pincus, Assistant Federal Public Defender
for the District of Colorado, respectfully requests this Honorable Court for
leave to proceed in forma pauperis in applying for a Writ of Certiorari. In
support of this request, Petitioner states that undersigned counsel was

appointed pursuant to the Criminal Justice Act by the United States Court
of Appeals for the Tenth Circuit, and that he is unable to retain counsel and
pay for costs attendant to the proceedings before this Honorable Court.
WHEREFORE, the Petitioner, Justin Lane Foust, respectfully requests
that he be granted leave to proceed in forma pauperis.
Respectfully submitted,
VIRGINIA L. GRADY
Federal Public Defender

/s/ Howard A. Pincus
HOWARD A. PINCUS
Assistant Federal Public Defender
Counsel of Record for Petitioner
633 17th Street, Suite 1000
Denver, Colorado 80202
(303) 294-7002

